U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

December 21, 2020

Hugo Humberto Perez Rangel v. USA,
S.Ct No. 20-6409

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
18, 2020 and placed on the docket on November 24, 2020. The government’s response is due on
December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6409
RANGEL, HUGO HUMBERTO PEREZ
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

